TN
COCKLE

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964

(402) 342-2831
Fax: (402) 342-4850

No.

PROJECT VERITAS ACTION FUND,

Petitioner,
v.

RACHAEL S. ROLLINS, in her official capacity as
District Attorney for Suffolk County, Massachusetts,

Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF

CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court

Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 8956 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 12th day of May, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
i RENEE J. GOSS
My Comm. Exp. September 5, 2023

 

Kane. Qdlooa Qndrawht hale

Affiant

40845
